Audit Report

Community Oriented Policing Services Technology Grants
Administered by the South Bend, Indiana Police Department

Report No. GR-50-05-003


January 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the technology grants awarded by the Office of Community Oriented Policing Services (COPS) to the South Bend, Indiana Police Department (South Bend PD).  The purpose of the Law Enforcement Technology Program is to continue the development of technologies and automated systems to assist state and local law enforcement agencies in investigating, responding to, and preventing crime.  Between October 2001 and May 2004, the South Bend PD was awarded two grants totaling $748,375 to fund 115 in-car video recording systems and an Automated Fingerprint Identification System (AFIS).  The goal of the $500,000 in-car video grant is to increase the efficiency, integrity, and communitys trust in the South Bend Police Department through mandatory use of in-car video recording systems.  These systems were expected to not only assist police officers and prosecutors in apprehending and convicting criminal suspects but also to deter the mistreatment of criminal suspects by law enforcement officers.  The goal of the $248,375 AFIS grant is to improve community policing and overall law enforcement with the installation, training, and use of a state-of-the-art automated fingerprint identification system.  

The objective of our audit was to determine whether reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.  Our audit revealed weaknesses related to grant drawdowns, reporting, and management of grant property, and as a result, we question $8,152 of grant funds received.1   Specifically, we found:

The grantee drew down funds but did not expend the funds in a timely manner; consequently, the South Bend PD earned excess interest in the amount of $4,105; 

	The grantee did not submit all required financial status reports and ten submitted reports were untimely and/or inaccurate; and 

	The grantee could not locate one in-car video recording kit that was purchased with $4,047 in grant funds. 

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objective, scope and methodology appear in Appendix I.  

We discussed the results of our audit with South Bend PD officials and have included their comments in the report as applicable.  In addition, we provided our draft report to the South Bend PD and the COPS Office and solicited comments, which have been appended to the report.  
  



Footnotes

The Inspector General Act of 1978 as amended contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.